<html>
<title> - NOMINATIONS OF LeGREE DANIELS AND JOHN WALSH</title>
<body><pre>[Senate Hearing 106-324]
[From the U.S. Government Printing Office]


                                                        S. Hrg. 106-324

 
              NOMINATIONS OF LeGREE DANIELS AND JOHN WALSH

=======================================================================


                                HEARING

                               BEFORE THE

                              COMMITTEE ON
                          GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE

                       ONE HUNDRED SIXTH CONGRESS

                             FIRST SESSION

                                 ON THE

  NOMINATIONS OF LeGREE DANIELS, OF PENNSYLVANIA, AND JOHN WALSH, OF 
  CONNECTICUT, TO BE GOVERNORS OF THE BOARD OF GOVERNORS OF THE U.S. 
                             POSTAL SERVICE


                               __________

                            OCTOBER 21, 1999

                               __________

      Printed for the use of the Committee on Governmental Affairs


                               <snowflake>


                       U.S.GOVERNMENT PRINTING OFFICE
61-295cc                      WASHINGTON : 2000
_______________________________________________________________________
For sale by the Superintendent of Documents, Congressional Sales Office
         U.S. Government Printing Office, Washington, DC 20402


                   COMMITTEE ON GOVERNMENTAL AFFAIRS

                   FRED THOMPSON, Tennessee, Chairman
WILLIAM V. ROTH, Jr., Delaware       JOSEPH I. LIEBERMAN, Connecticut
TED STEVENS, Alaska                  CARL LEVIN, Michigan
SUSAN M. COLLINS, Maine              DANIEL K. AKAKA, Hawaii
GEORGE V. VOINOVICH, Ohio            RICHARD J. DURBIN, Illinois
PETE V. DOMENICI, New Mexico         ROBERT G. TORRICELLI, New Jersey
THAD COCHRAN, Mississippi            MAX CLELAND, Georgia
ARLEN SPECTER, Pennsylvania          JOHN EDWARDS, North Carolina
JUDD GREGG, New Hampshire
             Hannah S. Sistare, Staff Director and Counsel
                      Dan G. Blair, Senior Counsel
      Joyce A. Rechtschaffen, Minority Staff Director and Counsel
          Peter A. Ludgin, Minority Professional Staff Member
                 Darla D. Cassell, Administrative Clerk
                            C O N T E N T S

                                 ------                                
Opening statements:
                                                                   Page
    Senator Cochran..............................................     1
    Senator Lieberman............................................     3
    Senator Specter..............................................     7
    Senator Akaka................................................     8

                                WITNESS
                       Thursday, October 21, 1999

Hon. Christopher Dodd, a U.S. Senator from the State of 
  Connecticut....................................................     1
LeGree Daniels, of Pennsylvania, to be a Governor of the Board of 
  Governors of the U.S. Postal Service...........................     5
John Walsh, of Connecticut, to be a Governor of the Board of 
  Governors of the U.S. Postal Service...........................     5

                     Alphabetical List of Witnesses

Dodd, Hon. Christopher:
    Testimony....................................................     1
Daniels, LeGree:
    Testimony....................................................     5
    Biographical and financial information.......................    13
    Pre-hearing questionnaire....................................    22
Walsh, John:
    Testimony....................................................     5
    Biographical and financial information.......................    29
    Pre-hearing questionnaire....................................    35

                                APPENDIX

Senator Rick Santorum, a U.S. Senator from the State of 
  Pennsylvania, prepared statement...............................     4

              NOMINATIONS OF LeGREE DANIELS AND JOHN WALSH

                              ----------                              


                       THURSDAY, OCTOBER 21, 1999

                                       U.S. Senate,
                         Committee on Governmental Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:03 a.m., in 
room SD-628, Dirksen Senate Office Building, Senator Thad 
Cochran presiding.
    Present: Senators Cochran, Specter, Lieberman, and Akaka.

              OPENING STATEMENT OF SENATOR COCHRAN

    Senator Cochran. The Committee will please come to order. 
This morning we are meeting to have confirmation hearings for 
two nominees for the Board of Governors of the U.S. Postal 
Service, Mrs. LeGree Daniels and Mr. John Walsh. We welcome you 
to the Committee.
    We are also pleased to have with the Committee this 
morning, the two distinguished Senators from Connecticut. One 
is the Ranking Minority Member of the Committee. The other is 
Senator Chris Dodd.
    Senator Dodd, we appreciate your being here. We understand 
that you are here to introduce Mr. Walsh.
    Senator Dodd. I am.
    Senator Cochran. You may proceed.

  TESTIMONY OF HON. CHRISTOPHER DODD, A U.S. SENATOR FROM THE 
                      STATE OF CONNECTICUT

    Senator Dodd. Thank you very much. I am pleased to be able 
to do so, and pleased to be sharing the table with Mrs. Daniels 
as well. I congratulate you, Mrs. Daniels, on this nomination.
    Mrs. Daniels. Thank you.
    Senator Dodd. Mr. Chairman, this is a labor of pleasure and 
love to be able to introduce John Walsh, who is a wonderful 
friend. His lovely wife, Anne, is here with us as well, from 
New Haven, Connecticut.
    I must tell you though at the outset, this nomination was 
submitted in 1996, in November 1996. The President made the 
submission in October 1998. This is not just here in this 
Committee. This is something we need to look at in a broader 
way. We ask people to consider these positions, and then for 2 
or 3 years we leave people waiting. I called John Walsh a 
couple of years ago when the word came his nomination was going 
to be accepted, I said, ``Well, start licking stamps.'' If he 
had started licking stamps, we would have lost him a year or so 
ago. [Laughter.]
    So as a broader matter, I sit on the Rules Committee, and 
every time I am faced with a nomination, I look at the length 
of time we make people go through a process here. We need to do 
something around here to be able to expedite a process for 
asking people to serve and then moving the process along in 
some way. And I know you share those thoughts as well.
    But anyway, I am pleased to introduce to the Committee, 
John Walsh. Joe Lieberman, my good friend and colleague, would 
share these thoughts with you, but every State, I guess, finds 
these niches and claims. But William Goddard, a founding member 
of the U.S. Postal Service, Mr. Chairman, was from New London, 
Connecticut. His father was actually the postmaster in New 
London, Connecticut, two centuries ago. And his son decided he 
would take the concept a bit further, and formed in the mid 
1770's the constitutional post, which was the forerunner to the 
U.S. Postal Service. And in 1774 he had 30 offices all across 
the United States, from Portsmouth, New Hampshire to 
Williamsburg, Virginia, operating a postal service prior to the 
establishment of our Nation. The Continental Congress, in July 
1775, they formed the U.S. Postal Service. Ben Franklin, of 
course, became the first Postmaster General, which we all know 
from our history books. A different time in history, because it 
was his son-in-law, Richard Bache, who was named the Deputy 
Postmaster General. But William Goddard was named surveyor of 
the Post Office. So this fellow from Connecticut joined 
Franklin and Bache as really the triumvirate or troika, if you 
will, that started the U.S. Postal Service. But it was a New 
London fellow who really predated a national postal service 
with a constitutional post.
    So there is a longstanding tradition of our interest in 
this subject matter, and John's nomination to the Postal Board 
of Governors is something that would follow in that tradition. 
He has had a wonderful record of service, and New Haven, 
Connecticut has given this country some wonderful leaders, not 
the least of which is the person who sits to your right, my 
colleague and dear friend, Joe Lieberman; and Rosa DeLauro, who 
sits in the House of Representatives. Roger Sherman, who 
created the U.S. Senate, was from New Haven, Connecticut, who 
came up with the concept of the Connecticut Compromise, which 
offered big States and small States a compromise in 
representation in the Federal Government.
    So a wonderful, rich tradition coming out of this city, and 
John Walsh carries on in that tradition. He has been a 
wonderful, committed citizen in that community with 35 years of 
service to the people of New Haven, one of the quiet leaders, 
who just day in and day out gets the job done for average 
citizens.
    So it is truly an honor to watch this quiet pillar, if you 
will, of New Haven be presented to this Committee for this 
prestigious position for which he is well suited and highly 
qualified, and I am confident that we will all be proud of his 
service in the U.S. Senate if we confirm him for this position.
    Senator Cochran. Thank you very much, Senator, for an 
excellent history lesson.
    Senator Dodd. Always a little history is nice.
    Senator Cochran. And eloquent statement in support of Mr. 
Walsh.
    Senator Lieberman.

             OPENING STATEMENT OF SENATOR LIEBERMAN

    Senator Lieberman. Well, thanks, Mr. Chairman. I am glad to 
welcome John Walsh here, and I appreciate the kind words of my 
colleague and the educational words of my colleague. I continue 
to learn from the senior senator.
    Senator Dodd. Thank you, Joe. Even early in the morning.
    Senator Lieberman. Even early in the morning. And this is 
not even on Don Imus's show.
    Senator Dodd. No, it is not.
    Senator Lieberman. It is an honor to welcome John Walsh and 
Governor LeGree Daniels.
    You know, it struck me that if Mr. Walsh gets confirmed for 
this in the due process of all of this, you and I will have to 
refer to him as Governor Walsh.
    Senator Dodd. Governor, that is true. Well, maybe we will 
amend that. [Laughter.]
    Senator Lieberman. Mrs. Daniels, let me just say first that 
I know that you have served on the Board of Governors since 
1990 with great distinction. I am pleased that the President 
has chosen to renominate you and that you have accepted this 
public responsibility once again. The Board has acted on many 
really remarkable, in some ways, revolutionary initiatives 
during your term, and I think you deserve credit for overseeing 
that, and I know that the Board will benefit by your serving a 
second term. So I appreciate that you have been willing to 
continue in this service.
    As Senator Dodd indicated, John Walsh has really been a 
great citizen of Connecticut, of the greater New Haven area. He 
is a friend to both of us. I have known him for the better part 
of the 40 years or so that I have spent in the city of New 
Haven. He is a great public and private citizen. He has the 
extraordinary advantage, which all of us on this panel, and 
Senator Dodd, share, which is that he has a wife who is much 
his superior in most everything, and even at moments when we 
think harshly of John, the benign and beautiful face of Anne 
Gorrick Walsh mollifies our concerns. She is a member of a 
great New Haven family, Mr. Chairman. Her dad was just one of 
those classic family doctors who were there for people when 
they needed them, with not only great medical skill, but with 
great personal honor.
    As Senator Dodd indicated, John has a great record, both in 
his private life and public life, graduate of Quinebaug 
College, active in business, then went on to serve, chairman of 
the New Haven Parking Authority, director of support services 
for the New Haven Police Department, purchasing agent and 
deputy controller for the City of New Haven, and now for a good 
part of this decade, the president of a very exciting and 
important project called the Ninth Square Association, which 
was established to take a central part of old New Haven which 
had deteriorated, and to revive it for both residential and 
commercial purposes. And today I can say that it is once again, 
this Ninth Square of New Haven, vibrant and teeming with 
activities.
    It took a long time to get to this morning, but I am 
delighted, and I have great confidence that John will serve in 
this position with effectiveness and with honor.
    In your pre-hearing questions, you stated that, ``The 
Postal Service faces the challenge of improving service to the 
public as it enters a new millennium.'' I could not agree with 
you more in that statement, and I could not have higher 
confidence that you, together with Governor Daniels and your 
other colleagues, will do just that.
    Thanks to both of you, and thank you, Mr. Chairman.
    Senator Cochran. Thank you, Senator Lieberman.
    We understand that Senator Specter is expected to come to 
the Committee to introduce Mrs. Daniels. Senator Santorum has 
indicated, because of proceedings on the floor of the Senate, 
he is unable to personally be here. But he sent over a written 
statement, which he asked that we make a part of the record, 
introducing and supporting Mrs. LeGree Daniels. That statement 
will be made a part of the record at this point.
    [The prepared statement of Senator Santorum follows:]

 PREPARED STATEMENT OF SENATOR RICK SANTORUM, A U.S. SENATOR FROM THE 
                         STATE OF PENNSYLVANIA
    Mr. Chairman and Members of the Committee, I would like to thank 
you for extending me the opportunity to offer testimony on behalf of 
Mrs. LeGree Daniels, nominee for the U.S. Postal Service Board of 
Governors. Over the years, I have worked closely with Governor Daniels 
and am impressed with her demeanor and work ethic. I come before you 
this morning to recommend her continued service on the Board of 
Governors.
    As you know, the Board is the governing body of the U.S. Postal 
Service. the Board directs the exercise of the powers of the Postal 
Service, directs and controls its expenditures, reviews its practices, 
conducts long-range planning, and sets policies on all postal matters. 
The Board takes up matters such as service standards, capital 
investments and facilities projects exceeding $10 million. It also 
approves officer compensation. With each of those important 
responsibilities in mind, the importance of having the best-qualified 
candidates serving as members of the Board is clear.
    Mr. Chairman, I believe that Governor Daniels has the experience 
and skill to continue in her valuable contribution to the deliberations 
and actions of the Board. Governor Daniels, who has already served one 
full term on the Board, has had a long and impressive career, working 
with non-profit entities, the Federal Government, and the Commonwealth 
of Pennsylvania. For instance, Governor Daniels is a member of the Penn 
State Board of Advisors for the Harrisburg Campus, a member of the 
Board of Directors of the Center for International Private Enterprise, 
which is an arm of the U.S. Chamber of Commerce, and member of the John 
Heinz Harrisburg Senior Center. Moreover, Governor Daniels has been 
Vice Chairman of the National Electoral College on two occasions. She 
is a former member of the President's Commission on White House 
Fellows, the Army Science Board, the National Endowment for Democracy, 
and the Middle Atlanta Advisory Board of the U.S. Civil Rights 
Commission. She has also been Deputy Secretary of the Commonwealth of 
Pennsylvania and Commissioner of Election for the Pennsylvania 
Department of State. Currently, she is a member of the U.S. Postal 
Service Board's Audit Committee.
    Mr. Chairman, in closing I would like to thank you once again for 
allowing my comments to be included in the record of this hearing, and 
I urge the Committee to expeditiously consider, and fully support, Mrs. 
Daniels' nomination.

    Senator Cochran. Senator Akaka, did you have any opening 
statement or comments you would like to make before we proceed?
    Senator Akaka. When I ask my questions, I will make a brief 
statement.
    Senator Cochran. OK. The rules of the Committee require 
that an inquiry be conducted into the experience, 
qualification, suitability and integrity of each nominee to 
serve in the position to which he or she has been nominated. 
The Committee has received all of the required information that 
it needs for this hearing.
    In addition, each nominee has responded in writing to 
questions submitted by the Committee. Copies of each nominee's 
biographical information and pre-hearing responses will be made 
a part of the record of this hearing, and will be available 
upon request. The financial statements of the nominees are 
available for inspection by the public in the Committee Office.
    The Committee has reviewed all of this information. The 
staff has examined the financial disclosure reports submitted 
by the Office of Government Ethics. And the Committee's Ranking 
Minority Member and I have reviewed the FBI background 
investigation reports.
    The rules of the Committee require that all nominees be 
under oath while testifying on matters relating to their 
suitability for office, including the policies and programs 
which the nominee will pursue if confirmed.
    Would the nominees please stand and raise your right hand 
for the oath?
    Do you solemnly swear to tell the truth, the whole truth 
and nothing but the truth, so help you, God?
    Mrs. Daniels. I do.
    Mr. Walsh. I do.
    Senator Cochran. Thank you.
    At this time we will be happy to recognize you for any 
statements or comments that you would like to make, Mrs. 
Daniels.

TESTIMONY OF LeGREE DANIELS, OF PENNSYLVANIA, TO BE A GOVERNOR 
            OF THE BOARD OF THE U.S. POSTAL SERVICE

    Mrs. Daniels. Thank you.
    I am not sure this morning. I got up with mixed feelings. 
Although I have been here before, I just felt this morning how 
important this is and what an important step I am still taking.
    And coming over here I thought, ``Well, what do I need to 
do that is any different from what I have been doing?'' So the 
only thing I could think of is just say, pray a little harder 
that we do a better job, and continue to do what this Congress 
expects us to do, and I am sure that we will.
    Senator Cochran. Thank you very much. Mr. Walsh.

 TESTIMONY OF JOHN WALSH, OF CONNECTICUT, TO BE A GOVERNOR OF 
              THE BOARD OF THE U.S. POSTAL SERVICE

    Mr. Walsh. Yes, Mr. Chairman, Senators, Governor Daniels, 
and guests here in the room.
    I am honored to be here today. To serve the people has 
always been one of my ambitions. I am deeply grateful to 
Senator Dodd, for his kind remarks, and for recommending me for 
a position on this board, and for his kind words and for over 
25 years of friendship; and to my good friend, Senator Joe 
Lieberman, for his kind remarks, and for his support and 
friendship for over 40 years in the city of New Haven.
    It is a very humbling experience to know that a person such 
as myself, with experience both in the public and private 
sector, can fulfill an ambition such as this.
    Thank you, Mr. Chairman and Senators, for letting me appear 
here this morning.
    Senator Cochran. Thank you, Mr. Walsh.
    Let me ask you a few standard questions we ask of each 
nominee appearing for confirmation before the Committee. Is 
there anything you are aware of in your background which might 
present a conflict of interest with the duties of the office to 
which you have been nominated? Mrs. Daniels.
    Mrs. Daniels. Not that I can think of.
    Senator Cochran. Mr. Walsh.
    Mr. Walsh. None.
    Senator Cochran. Do you know of any reason, personal or 
otherwise, that would in any way prevent you from fully and 
honorably discharging the responsibilities of the office to 
which you have been nominated? Mrs. Daniels.
    Mrs. Daniels. No.
    Senator Cochran. Mr. Walsh.
    Mr. Walsh. No.
    Senator Cochran. Do you agree without reservation to 
respond to any reasonable summons to appear and testify before 
any duly constituted committee of Congress if you are 
confirmed? Mrs. Daniels.
    Mrs. Daniels. Yes.
    Senator Cochran. Mr. Walsh.
    Mr. Walsh. Yes.
    Senator Cochran. Thank you. Senator Lieberman.
    Senator Lieberman. Thanks, Mr. Chairman, I have just really 
a few questions.
    In testimony that Postmaster General Henderson gave before 
one of the subcommittees here, he said that he does not think, 
``there is any question that the Postal Service of the future 
will be different than it is today.''
    So, in general terms--and I know, Governor Daniels, you 
have been there, Mr. Walsh, you are hopefully coming to it--I 
wonder what either of you think about what the Postal Service 
of the future may look like, or in a more limited way, what 
challenges do you think will face the Postal Service in the 
future? Governor Daniels.
    Mrs. Daniels. I think the challenges that we will be facing 
first thing is this Internet, as we get into the electronics. 
But you know, I have so much faith in the employees of the 
Postal Service. I have worked with them. I have walked through 
the Postal Service. And I just believe, like all Americans, 
whatever that challenge is, we will face it, overcome it, and 
we certainly will conquer it. I think they have the knowledge, 
and that they will do what needs to be done for the American 
people.
    Senator Lieberman. Thank you. Mr. Walsh.
    Mr. Walsh. I certainly agree with Governor Daniels and her 
remarks. And I guess I would follow in the same line, that the 
Internet, as we go into the new millennium, is here to stay, 
not going away. I think the Post Office, just like every other 
business, has to gear up for it, and I am assuming that the 
Post Office has already taken steps. I know that you can buy 
stamps on E-mail on the computer now. And I think down the line 
this is going to be the biggest area of change that the Post 
Office will see in the future.
    Senator Lieberman. Thank you.
    Let me mention one other piece of testimony before the 
Governmental Affairs Committee. Richard Moe, who is president 
of the National Trust for Historic Preservation, testified that 
the issue of Post Office closings is one of the top priorities 
of his organization. He is concerned about whether the Postal 
Service is giving sufficient consideration to communities' 
input related to preserving historic Post Offices. Now, I do 
not know whether you have had any time to think about that. I 
wanted to mention it to you because it is testimony before this 
Committee, and just generally ask you if you have any thoughts 
about the Postal Service's policy regarding the preservation of 
Post Offices that are located in historic buildings. Mr. Walsh, 
do you have any thoughts on that?
    Mr. Walsh. Not knowing any of the procedures that the Post 
Office has to maintain these buildings, I would just like to 
say that I think that in any changes in a community, the 
community should be involved in the decision-making process. 
Ultimately it will be the decision of the Postal Service, but 
you need to bring in the people in the community to look at 
these buildings and see if it is feasible to keep them.
    Senator Lieberman. Thank you. Governor Daniels.
    Mrs. Daniels. I feel that it is critical that we keep these 
Post Offices open where we can, especially in small towns, in 
order for the rural customers to have access to the same goods 
and services of customers in the cities. So I honestly feel 
that if it is financial feasible, that we should work with the 
people in those areas to keep them open where we can.
    Senator Lieberman. I thank you both. I note that our 
colleague, Senator Specter is here.
    And I look forward, Mr. Chairman, to working with you; 
appreciate the speed--although it took a long time for these 
two nominations to get here. Actually, Mr. Walsh had no gray 
hair at the time he was nominated. [Laughter.]
    Well, I may be exaggerating a bit.
    Once the nominations got here, you moved--and I thank 
Senator Cochran--very quickly, to get them before us, and I 
hope we can move with equal dispatch to get both of them 
through the Senate. Thanks very much.
    Senator Cochran. Thank you, Senator Lieberman.
    Senator Specter, we welcome you to the hearing. We know you 
are interested in the nomination of Mrs. Daniels, particularly, 
and you are recognized at this time for any comments you would 
like to make.

              OPENING STATEMENT OF SENATOR SPECTER

    Senator Specter. Thank you very much, Mr. Chairman, Senator 
Lieberman, and Senator Akaka. It is a great pleasure to appear 
before this very distinguished Committee, because I am a Member 
of this Committee. [Laughter.]
    So I have an option of seating arrangements today, but I 
choose to sit next to Mrs. LeGree Daniels, who is a friend of 
some 30 years. We are called upon very frequently to introduce 
constituents, but infrequently to introduce one whom I have 
known as long as I have known Mrs. Daniels.
    She has an extraordinary record, and was a member of the 
Senate family going back to 1974 when she was a staff assistant 
for Senator Hugh Scott. Her career has included being Assistant 
Secretary for Civil Rights in the Department of Education in 
the 1987 to 1989 time frame. She has been an examiner and 
supervisor with the Pennsylvania Bureau of Motor Vehicles. She 
attended Temple University and the Lincoln Business School. She 
is a member of the Harrisburg Branch of the NAACP and the 
Dauphin County Urban League. She has been very active in 
Republican State politics, and I might say, with great 
discretion in that position, former Secretary of the Republican 
State Committee and Director Emeritus and member of the Policy 
Committee of the Pennsylvania County of Republican Women.
    She has a very distinguished family background, married to 
Oscar Daniels, two stepdaughters, Octavia Duncan and Gwendolyn 
Daniels.
    She has served on the Postal Service Board of Governors, 
and now she is up for a renewed term, and I am delighted that 
LeGree has been willing to re-enlist, because she is 
experienced and dedicated and competent. You cannot ask for 
much more than that.
    I appreciate the opportunity to appear here, Mr. Chairman, 
and Members of the Committee, and I would ask leave to be 
excused to go back to the Appropriations Committee, where we 
are trying to get out a Bill on Labor, Health, Human Services 
and Education.
    Senator Cochran. Without objection, that leave request is 
granted.
    Senator Lieberman. Thank you. [Laughter.]
    Senator Cochran. And thank you for your kind comments and 
your excellent statement in support of Mrs. Daniels.
    Senator Lieberman.
    Senator Lieberman. Well, I was just going to ask Senator 
Specter to make sure he did not forget all of those requests 
for Connecticut projects before his Appropriations 
Subcommittee. [Laughter.]
    Senator Specter. As usual, Connecticut is over-represented. 
[Laughter.]
    Senator Cochran. Senator Akaka, do you have any questions 
of the nominees?

               OPENING STATEMENT OF SENATOR AKAKA

    Senator Akaka. Thank you very much, my friend, Mr. 
Chairman, and my friend and colleague, Senator Lieberman. I am 
glad to be a part of this hearing.
    And I join them in welcoming you to the Committee, and also 
your families and friends that are gathered here.
    Mrs. Daniels, I would like to take this opportunity to 
thank you for your willingness to serve for another term. 
Sometimes it is a question after you serve a term, whether you 
should continue. But you chose to do just that, to continue as 
a Governor of the Postal Service. I am aware of the time it 
takes to be a member of this Board, and I am also aware of how 
seriously you take your responsibility. Since 1990 you have 
represented the public's interest before the Board in much the 
same way that a member of a board of directors of a private 
corporation would represent the stockholder's interest. We 
certainly appreciate what you have done.
    Since your confirmation 9 years ago, the Postal Service has 
made significant progress. This is history. Customer 
satisfaction is up. Revenue is strong. And on-time delivery of 
first class mail is at an all-time high. And so we are at the 
best we have ever been, and thanks to you and others who have 
been serving thus far, we owe a big debt of gratitude to you.
    I have several questions I would like to ask you, and then 
I will do the same with Mr. Walsh.
    Mrs. Daniels, are there specific steps that the Board has 
taken that you believe have contributed to these successes?
    Mrs. Daniels. Well, the one step we have taken is the fact 
that we have set up committees so we are on top of everything 
usually, and we work very closely with management. And I think 
not only that has helped us, but some of the Governors make it 
a part of their duties to visit the Post Office to see what our 
postal employees are doing. We know it is a part-time job, but 
most of us have felt it is a full-time job, because we owe it 
not only first to our postal employees, but also second, to our 
customers, which are our outside customers. So we felt when we 
took--at least I have--when I took this oath, that it was for 
real, and that I owed it not only to myself but to the American 
people to do a good job, and that is what we have tried to do, 
and with that help and the help of our employees. We have the 
best in the country. And you ask them to do something, 9 
chances out of 10, they will come through for you, and this is 
why the success. It has not been us. It has been those postal 
employees on whose shoulders we are all standing, and they have 
come through for us, and will continue to do so.
    Senator Akaka. Well, you speak so highly of postal 
employees, and I know you are interested in how the postal 
employees are treated. Are you satisfied with how labor 
relations have progressed for them?
    Mrs. Daniels. No, I am not totally satisfied, but both 
sides are trying to work it out. A case in kind has been the 
last labor meeting we have gone through, and it has been much 
better than it has been in the past. It is something we all 
have to work with, not only labor, but management as well. And 
you know when people talk and get together, eyeball to eyeball, 
it usually works because we are all Americans, and there is 
always a way that you can find an answer, the correct answer.
    Senator Akaka. You and Mr. Walsh commented on the Internet 
and the place that it will be playing in the future of the 
Postal Services, and I am sure you have been able to witness 
what has been happening. How do you envision the Postal Service 
responding to these changes? For instance, there was a 
criticism that the Postal Service was not receiving enough 
resources to move in these areas, but I am asking how you 
envision the Postal Service responding to these changes?
    Mrs. Daniels. Exactly what we are now doing. The Postmaster 
General, along with us, we have had a conference that we called 
together for the Governors as well as postal management, to see 
how we envision the year 2000. The Postmaster General now is 
working on those appointments, and things that he thinks we 
need to change this Postal Service, so we can go into the year 
2000 and 2001. He will be presenting that to the Governors, and 
I am sure those rules and regulations he has changed will be 
presented to you all.
    It is hard for me to explain today exactly what we are 
going into, but we are looking at all of it to make sure we go 
into it so that we can continue to deliver mail every day, 
everywhere, for all Americans.
    Senator Akaka. I understand that like most Governors, you 
have not taken a position on H.R. 22, the Postal Reform Bill in 
the House. However, as you probably know, there are provisions 
in the bill that could privatize certain aspects of mail 
delivery. Would you care to comment on this issue?
    Mrs. Daniels. I would not like to get into it totally, 
because I do not have it with me. I am not for privatization of 
the Postal Service, but there are some things in there that 
perhaps would help us. I have not gone through it totally, and 
when I have, I will give it to you in writing at another time.
    Senator Akaka. Mr. Walsh, I wish to express my appreciation 
for your interest in serving the public as a member of the 
Board of Postal Governors. The journey on which you are about 
to embark, if confirmed as a governor--will be exciting, but it 
will be time consuming also, as you probably know. I thank your 
family in advance for their willingness to have you serve as a 
member of the Board. I am sure that Mrs. Daniels can attest to 
the many responsibilities and activities beyond the monthly 
meetings that take up her time, and that will be taking up your 
time as well. And I hear from my colleagues that you are a busy 
person in New Haven, so this is an additional responsibility.
    Mr. Walsh, you have had a distinguished career, which my 
colleagues from Connecticut have recounted eloquently. You do 
not appear to be afraid of tackling large-scale projects 
involving significant financing, nor dealing with contract and 
personnel issues. Obviously, there is a great deal of 
information that a new Board Governor has to learn, and I am 
not sure where I could start if I were in your position at this 
moment; however, I am sure that you have given this much 
consideration.
    I would be interested to know how you will undertake this 
tremendous challenge.
    Mr. Walsh. Thank you for your kind words, Senator.
    First of all, I have to be a learner. I have to listen. I 
have to get involved. I have to listen to my colleagues on the 
Board. I imagine I have to do a lot of reading. I have to visit 
postal offices. I think in any new venture that you go into, 
there is a learning process. I have programmed myself for a 6-
month learning process. I hope I can learn as much as I can in 
those 6 months that will help me to be a contributor to the 
policy of the Board. But I think I have to get up to speed real 
quick.
    Senator Akaka. Well, with the experiences you have had 
already in the community, and capitalizing on your years of 
experience with strategic and long-range planning in government 
and the private sector, have you had an opportunity to think 
about how you would integrate this experience with your 
responsibilities as a Governor?
    Mr. Walsh. Well, I think I would leave that up to the 
Chairman of the Board, whatever committee he would want to put 
me on, but my experience is in labor negotiations, contracts, 
leasing, purchasing, development, that whole area. So I would 
hope that is where I might have a fit in those areas.
    Senator Akaka. I think you would assume very well the 
responsibilities of a Governor. The Postal Service has come a 
long way in improving labor/management relations, but there 
remains much to do, as we all know. Do you have any suggestions 
as to how postal management and labor unions can find a common 
ground in this area?
    Mr. Walsh. Well, whenever you start the negotiation 
process, there has to be honesty, integrity on both sides of 
the table. I think once you develop that, then I think other 
things begin to fall into place, but you have to have honesty 
and integrity to be the main focus when you start off in 
negotiation. But I think every problem can be solved.
    Senator Akaka. My last question, Mr. Chairman.
    Because, Mr. Walsh, you have not been confirmed as a member 
of the Board, and have not had an opportunity to review Postal 
Reform legislation, I feel that it would be unfair of me to ask 
you about this issue. However, you would probably know that the 
bill has the potential of privatizing mail delivery. Do you 
have any general comments--and again, I leave it to whether you 
care to answer or not--comments on privatization, and any 
specific thoughts on how privatization of certain postal 
functions could impact delivery of mail?
    Mr. Walsh. I really do not feel qualified to answer that 
directly, but I will answer the privatization, that companies 
all over, and cities and States all over the country are 
getting into. They are looking at this: Is it feasible? What 
are the cost factors? There is a whole list of items to be 
looked at. So I think the Post Office, just like any other 
major business, will look at these avenues, and then make a 
decision which will affect the future of the Post Office.
    Senator Akaka. Well, I thank you so much for your 
responses, and those of Mrs. Daniels. I welcome you here and 
wish you well.
    Mr. Walsh. Thank you very much, Senator.
    Senator Akaka. Thank you very much, Mr. Chairman.
    Senator Cochran. Senator Akaka, thank you for your 
contribution to this hearing.
    We appreciate very much the cooperation that each of you 
have shown to the Committee and the confirmation process. We 
congratulate you, Mrs. Daniels, on your excellent and exemplary 
service previously as a member of the Board of Governors of the 
Postal Service, and we look forward to working with you in the 
years ahead, as you embark upon your second term.
    Mr. Walsh, it is good to meet you, and I congratulate you 
again on your nomination, and wish you well in your period of 
service as a member of the Board of Governors.
    Mr. Walsh. Thank you, Mr. Chairman.
    Senator Cochran. The record will remain open for any 
additional statements Members may wish to place in the record. 
We have no other questions at this time, but if additional 
questions need to be submitted, we hope you will respond to 
them in a timely fashion.
    Mr. Walsh. I certainly will.
    Senator Cochran. The hearing is adjourned.
    [Whereupon, at 10:39 a.m., the Committee was adjourned.]



                            A P P E N D I X

                              ----------                              

[GRAPHIC] [TIFF OMITTED] T1295.001

[GRAPHIC] [TIFF OMITTED] T1295.002

[GRAPHIC] [TIFF OMITTED] T1295.003

[GRAPHIC] [TIFF OMITTED] T1295.004

[GRAPHIC] [TIFF OMITTED] T1295.005

[GRAPHIC] [TIFF OMITTED] T1295.006

[GRAPHIC] [TIFF OMITTED] T1295.007

[GRAPHIC] [TIFF OMITTED] T1295.008

[GRAPHIC] [TIFF OMITTED] T1295.009

[GRAPHIC] [TIFF OMITTED] T1295.010

[GRAPHIC] [TIFF OMITTED] T1295.011

[GRAPHIC] [TIFF OMITTED] T1295.012

[GRAPHIC] [TIFF OMITTED] T1295.013

[GRAPHIC] [TIFF OMITTED] T1295.014

[GRAPHIC] [TIFF OMITTED] T1295.015

[GRAPHIC] [TIFF OMITTED] T1295.016

[GRAPHIC] [TIFF OMITTED] T1295.017

[GRAPHIC] [TIFF OMITTED] T1295.018

[GRAPHIC] [TIFF OMITTED] T1295.019

[GRAPHIC] [TIFF OMITTED] T1295.020

[GRAPHIC] [TIFF OMITTED] T1295.021

[GRAPHIC] [TIFF OMITTED] T1295.022

[GRAPHIC] [TIFF OMITTED] T1295.023

[GRAPHIC] [TIFF OMITTED] T1295.024

[GRAPHIC] [TIFF OMITTED] T1295.025

[GRAPHIC] [TIFF OMITTED] T1295.026

[GRAPHIC] [TIFF OMITTED] T1295.027

[GRAPHIC] [TIFF OMITTED] T1295.028

                                   <all>
                               
</pre></body></html>
